         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

Performance-Based Contract
Incentives at the Hanford Site




DOE/IG-0739                            September 2006
                                   Department of Energy
                                           Washing ton, DC 20585


                                           September 20, 2006



MEMORANDUM FOR

FROM:
                            Inspector General

SLrBJECT:                    INFORMA'TION: Audit Report on the ' Performance-Bdsed
                             Contract Incent~vesat the Hanford Site"

BACKGROUND

In 2002. the Office of Environmental Management (EM) directed its field organization LO
ensure thar the structure of environmental remediation contracts emphasized he
completior~of specific tasks. Many of these tasks were acknowledged to be a,,~oressive
and technologically challenging. As part of this initiative, EM'S field activities at the
Hanford Washington site, the Richland Operations Office (Richland) and the Office of
River Protection (ORP), incorporated results-oriented work scopes in t h e ~ contracts
                                                                              r          and
increased the potential fees that the contractors could earn for completing especially
challenging work. Richland, for example, accelerated work on at least ten majrjor projects.
It also increased the available fee pool of its contractor, Fluor Hanford, Inc., from
approximately $127 million to $180 million for Fiscal Years 2003 - 2006. ORP took
similar action by accelerating the schedule to cleanup waste tanks at the Hanford Site and
included $72 million in performance incentives in its contract with CH2M HILL Hanfortl
Group, Inc. (CH2M HILL) to accomplish this and other work.

Because of the extraordinary health and safety risks that exist at Hanford and the sizable
commitment of funds for site environmental remediation, we conducted this audit to
determine whether the Department of Energy (Department) had effectively implemented
the performance-based incentives program at the Hanford Site.

RESULTS OF AUDIT

Although ORP and Richland intended for their performance-based contract incentives to
be result-oriented, in certain cases, the work assigned to site contractors by these offices
was not realistic or achievable. As a result, the Department's limited financial resources
were applied to incentivize end-states that were not readily attainable; and, fees were paid
for work that could not be completed. For example,

       ORP established an incentive to retrieve and treat transuranic tank waste, and
       begin shipping the waste from Hanford to the Waste Isolation Pilot Plant in June
       2005. The incentive was established despite significant, known regulatory
       barriers beyond the control of the contractor to achieving the desired end state.
       Ultimately. the Department was not able to overcome these barriers. Work on the
       project \Y;IS S ( O P I in          ~ ~April
                                               ~    2005. The contractor was i-ei1nl3u1-sed
                                                                                          I'or thc worl, i t
       ~ ~ c ~ ~ l ' o ~a ~- ~i t ilrccci\lcd
                                     ic.tl     an incentive See for its eff'orts.
                                       .   ,
                                                            8   I
         Siniilal-ly. Richland directed a site contractor to ship excess plutonium from
         Hanford's Plutonium Finishing Plant (PFP) to an a11p1-ovedinterim storage
         facility. The goal was to make PFP demolition-ready which would allow Hanford
         to reduce security costs. However, the Department did not have a comprehensive
         program in place to consolidate the material and subsequently found it necessary
         to postpone the shipment. Because of contractual requirements, the Department
         was obligated to pay the contractor for its efforts and to grant it a significant
         Incentive fee for an assignment which, in effect, the contractor could not
         complete.

To its crcdit, the Department's intentions were to encourage contractors to become more
aggressive in their schedule and to look for morc cfficient ways of completing the work.
However, in structuring work assignments and performance incentives. the Department
did not adequately consider key factors affecting the likely outcome, including
techriological challenges, regulatory barriers, and other external actions or requirements
tor which thc contractor could not realistically be held accountable.

We also fhund that the Department did not always react in a timely manner to restructure
the affected contractor performance incentives once it recognized that incentivized
projects could not be completed. We found that the primary cause of this problem was a
cumbersome inccntivc change control process.

Our analysis showed that because of these problems, the Department was not able to
maximize the amount of successful cleanup work possible within available funding
constraints. We noted, for example, that the Department was slow to reorient funds
available tor Incentive t'ccs to accelerate other high priority work at the Hanford site.

In order to reduce these risks in the future, we recommended that the Department place
greater emphasis on evaluating the probability for success when establishing project
performance incentives and enhancing the contract-fee-change process to ensure that
incentive fees are realigned in a timely and effective manner.

MANAGEMENT REACTION

Management agreed with our recommendations, but disagreed with several conclusions
made in the report. Specifically, management stated that classifying the incentives as
unrealistic or unachievable is misleading and belies the Department's objective of linking
aggressive incentives with improved prqject performance. Management further stated the
Department did not pay for work that was not accomplished. Fee was paid for completed
work for which the project end state was no longer achievable.

Establishing effective contractor performance incentives is not casy business, especially
in dealing with a program as complex as the Department's environmental remediation
effort. We acknowledge, as well, that stretch goals and enhanced incentives, in some
cases, have increased contractor performance at Hanford. However, as is stressed in the
report, a number of established contractor incentives were essentially unachievable i'rom
~ h sla1.1
    c         hcc:~usco f factors oulsidc ~ h c:ont~.ol
                                                 c      or the contr;\ctos. FUI-they.we clisag~~cc
will1 ~ I I C ~~ndc:r-l yiny prcmisc of' m;un:\:cmcnr's contcnrion I!I;IIIce 1 ~ ~I1X Is~ C I 1'01. c ' o ~ n ~ ~ l c i ~ ~ l
WOT.I< for which the project end state was 110 longer achievable. At the time work scopes
and fees MICI-ecstablishcd, management's own analysis of the probability of success
showed that thc majority of tasks assigned to the site contractors had a 5 to 50 percent
chance of being successful. In the future, identification of possible barriers lo success
upf~rontwould facilitate the most effective application of available funding.

Management's verbatim comments and our detailed responses are included as Appendix 3.

Attachment

cc: Deputy Sscrclary
    Under Secretary for Energy
    Chief of Staff
    Assistant Secretary, Office of Environmental Man ag ement
    Manager, Office of River PI-otection
    Manager. Richland Operatin~sOffice
REPORT ON PERFORMANCE-BASED CONTRACT INCENTIVES AT
THE HANFORD SITE


TABLE OF
CONTENTS


           Performance-Based Incentives


           Details of Finding ........................................................................................1

           Recommendations........................................................................................4

           Comments ....................................................................................................5


           Appendices


           1. Objective, Scope, and Methodology......................................................8

           2. Prior Reports ..........................................................................................9

           3. Management Comments ......................................................................10
PERFORMANCE-BASED INCENTIVES

Implementation of   The Department of Energy (Department) did not always implement
Performance-Based   performance-based incentives at the Hanford Site (Hanford) in an
Incentives          effective manner. While the performance incentives were
                    measurable and outcome-oriented, a number of incentives were
                    not realistic or achievable. In addition, once it was determined that
                    the incentives could not be achieved within the contract period
                    because of factors beyond the control of the contractor, the
                    Department did not respond in a timely manner to reallocate the
                    incentive fee to other projects that could be achieved.

                                         Fluor Hanford Incentives

                    Several projects incentivized for Fluor Hanford, Inc. (Fluor
                    Hanford), had a low probability of success according to
                    Department assessments. The Richland Operations Office
                    (Richland) determined that the end state for seven projects, which
                    were incentivized at $110 million, had a 50 percent or less
                    probability for success. This represented about two-thirds of the
                    available fee pool. The probability reflected the technical risk of
                    the project, the anticipated funding available to achieve the work,
                    and the contractor's past performance.

                    For example, in Fiscal Year (FY) 2003, Richland established
                    an incentive of $7.2 million to ship the surplus plutonium from
                    Hanford's Plutonium Finishing Plant (PFP), to an interim storage
                    facility -- although it had a 50 percent probability of success.
                    Subsequently, in February 2005, the Department postponed
                    shipment of the material from Hanford since it did not have a
                    comprehensive program in place to consolidate the material at an
                    interim storage facility. Specifically, the Department did not have
                    storage space available to receive the material from Hanford, a
                    factor outside the control of Fluor Hanford. Accordingly, Fluor
                    Hanford was not able to achieve the objective for which the
                    incentive had been established.

                    The Office of Environmental Management (EM) stated that
                    plutonium stabilization and packaging was the most critical part of
                    the PFP incentive and that shipment of the plutonium was
                    important in order to lower life-cycle costs. Although Richland
                    believed that it achieved at least 95 percent of the work scope
                    associated with the plutonium shipment, it had not realized the
                    purpose of the incentive to remove the plutonium from the PFP so
                    that it could be put into a demolition-ready state, thereby reducing
                    the facility and security costs.




Page 1                                                             Details of Finding
         Also, Richland established a $40 million incentive to remove all
         spent nuclear fuel, sludge, debris, and water from the K-Basins, as
         well as deactivate the Cold Vacuum Drying Facility and all
         ancillary facilities in the 100K Area by October 2005, even though
         the project only had a five percent probability of success. In
         making this determination, Richland officials believed that the
         mandated acceleration was unlikely to be achieved, and past
         performance failures by Fluor Hanford suggested that the
         improvements necessary to support this acceleration were not
         likely to be sufficient. Nonetheless, Departmental officials
         mandated that the schedule be accelerated even though the project
         is one of the most technically complex cleanup projects in the
         Department. Based on current estimates, EM does not anticipate
         completing sludge removal operations at Hanford until November
         2009 -- or four years after the originally incentivized schedule.
         Although the project had such a low probability of success, neither
         the Department nor Fluor Hanford provided adequate attention to
         planning for sludge removal.

                               CH2M HILL Incentives

         In addition, the Office of River Protection (ORP) at Hanford
         established incentives for CH2M HILL Hanford Group, Inc.
         (CH2M HILL), on two major projects that were not realistic due to
         existing regulatory concerns and overly optimistic schedules. For
         example, ORP established an $8 million incentive to retrieve and
         treat transuranic tank waste, and to begin shipping the waste from
         Hanford to the Waste Isolation Pilot Plant in June 2005. However,
         ORP was aware as early as 2003, when the incentive was
         formulated, that there were significant regulatory barriers to its
         success that were beyond the contractor's control. Ultimately, the
         Department was not able to resolve these barriers and stopped
         work on the project in April 2005 because the necessary permits
         had not been acquired -- a factor beyond the contractor's control.

         In the second case, ORP provided CH2M HILL incentives of
         $26.7 million to retrieve waste from 22 single-shell tanks and for
         interim closure of eight tanks by the end of FY 2006. Although
         this incentive did result in the Department accelerating the retrieval
         of waste from tanks; as of May 2006, it had fully retrieved waste
         from only four tanks and had revised its baseline for completing
         the retrieval to March 2007.




Page 2                                                  Details of Finding
                                           Incentive Modifications

                      Once the Department recognized that incentive objectives could
                      not be achieved, it did not react in a timely manner to reallocate
                      incentives to other projects. For example, Richland officials
                      waited to renegotiate a number of changes at one time rather than
                      as changes occurred. This resulted in multiple incentive
                      modifications, including changes to the PFP and K-Basin sludge
                      removal projects, not occurring until at least 18 months after
                      Richland estimated that there was a low probability of success.
                      Additionally, ORP did not eliminate the work scope associated
                      with the transuranic mixed waste project when it recognized that
                      there were significant regulatory barriers beyond the contractor's
                      control that would make success of the project unlikely.

Pay for Performance   The Department's strategy was to pursue the incentives that would
                      encourage contractors to become more aggressive in their schedule
                      and look for more efficient ways of completing the work.
                      Nonetheless, project success relied on additional key factors
                      which, in our opinion, should have been considered in establishing
                      the incentives, such as regulatory and permitting concerns and
                      nuclear material consolidation program issues that were beyond the
                      control of contractors. Despite the impact of potentially
                      intervening factors, ORP did not perform an evaluation of the
                      probability of success for the incentives it established. Richland
                      performed this analysis, but did not factor the results into the
                      establishment of incentives associated with meeting certain end-
                      states. Rather than giving adequate consideration to these issues
                      prior to establishing the incentives, Department officials chose to
                      establish stretch goals and rely on negotiations to determine the
                      appropriate compensation for contractor performance once it was
                      known that the project could not be completed as planned.

                      We noted additionally that the Department's change control
                      process for performance-based incentives was cumbersome and
                      did not allow the Department to react in a timely manner once it
                      recognized that incentive objectives could not be achieved. The
                      current change control process is centralized and requires approval
                      from two separate Office of Environmental Management
                      committees, as well as the Assistant Secretary for Environmental
                      Management before changes can occur. All proposed changes are
                      reviewed by the Contract Management Advisory Council and
                      require approval by the Office of Environmental Management's
                      Configuration Control Board. Further, the Assistant Secretary for
                      Environmental Management centrally manages, controls, and




Page 3                                                               Details of Finding
                  approves Configuration Control Board actions. This change
                  control process did not allow contracting officers and site
                  managers the ability to manage day-to-day contract decisions.

Performance Not   As a result, the Department missed opportunities to use incentive
Achieved          funds to accelerate other work at the site that was realistic or
                  achievable. For example, incentive funds could have been directed
                  to other needs such as decommissioning wells at the Hanford Site.
                  As we reported in Well Decommissioning Activities at the Hanford
                  Site (DOE/IG-0670, January 2005), additional action is needed to
                  reduce the risk associated with potential contamination from
                  unused wells at the site that need to be decommissioned.
                  Furthermore, the Department paid incentive fees to contractors
                  without achieving the end states it sought to attain. For example,
                  the Department:

                   •   Paid Fluor Hanford $6.4 million for work scope related to the
                       PFP, but did not achieve one of its primary goals - shipping
                       plutonium to the Savannah River Site to reduce security costs
                       at the PFP;

                   •   Agreed to a settlement of $18.7 million for other Fluor
                       Hanford requests for equitable adjustments for incentive fees;
                       and,

                   •   Paid a settlement of more than $8 million to CH2M HILL for
                       the contractor's requests for equitable adjustments regarding
                       incentive fees. The settlement modified incentives for the
                       transuranic mixed waste project without achieving the
                       original objective of retrieving, treating, and disposing of the
                       waste.

                  By not ensuring that incentives were applied to achievable goals,
                  the Department is at risk of not realizing the maximum amount of
                  cleanup work possible from available funds.

RECOMMENDATIONS   To address the issues discussed in this report, we recommend that
                  the Assistant Secretary for Environmental Management:

                    1. Appropriately evaluate the projects' probability for success
                       when establishing performance incentives; and,

                    2. Reevaluate the contract fee change and review process to
                       determine if the current structure is providing timely results
                       and to consider allowing greater authority to the field to
                       adjust and realign incentives, in a timely manner, as
                       circumstances change.



Page 4                                                           Recommendations
MANAGEMENT         Management agreed with our recommendations, but disagreed with
REACTION AND       several conclusions made in the report. The Richland
AUDITOR COMMENTS   Operations Office and Office of River Protection also
                   indicated that they implemented the first recommendation before
                   the audit was conducted. Management's specific comments,
                   followed by our responses, are noted below.

                   Management Comment

                   Management stated that our conclusion that the incentives were not
                   realistic or achievable is misleading. Management recognized that
                   many of the incentives were extremely challenging, but they were
                   directly responsible for the successes pointed out in the report.
                   Management stated that it made a conscientious decision to
                   encourage contractors to look for more efficient ways to safely
                   accelerate and complete work. The Office of Environmental
                   Management stated that the total amount of work scope that will be
                   completed under challenging incentives is unarguably greater than
                   the amount of work scope that could be reasonably expected to be
                   achieved under incentives with a greater probability of success.
                   Management also stated that, while the probability of success was
                   low for many of the projects, it correctly established a fee pool
                   commensurate with that risk.

                   Auditor Response

                   We recognize that the Department established incentives that were
                   extremely challenging and were intended to encourage contractors
                   to look for more efficient ways to accelerate work. However, in
                   our view, a number of incentives were not realistic because of
                   factors outside the control of the contractor. Although it
                   established a fee pool it believed was commensurate with the
                   additional risk associated with acceleration, the contractors' ability
                   to earn the fee was, in some cases, determined by risk factors
                   associated with the Department's ability to deliver government-
                   furnished services and items. For example, the Office of River
                   Protection did not provide the necessary regulatory and permitting
                   deliverables for the transuranic mixed tank waste project. As a
                   result, the Office of River Protection stopped work on the
                   transuranic mixed tank waste project and settled a request for
                   equitable adjustment with the contractor.




Page 5                                                                      Comments
         Management Comment

         Management stated that our conclusion that the Department paid
         incentive fees for some work scope that was not accomplished was
         not true. While fees were paid for completed work for which the
         end-state was no longer achievable, the payment was based on the
         percentage of work completed toward the achievement of the
         planned end-state.

         Auditor Response

         While there are instances where it may be appropriate for the
         Department to pay fees based on the percentage of work
         completed, this practice is not contractually consistent with the
         incentives that were established in the Fluor Hanford and CH2M
         HILL contracts. Many of the incentives in these contracts were
         structured such that the Department would pay only if the end-state
         was completed. For example, the PFP incentive called for the
         shipment of excess plutonium to an approved interim storage
         facility. This was not accomplished.

         In total, approximately half of the accelerated performance-based
         incentive fees established by the Department at Hanford were
         provisional and could only be retained by the contractor if the end-
         state was completed. However, after establishing the incentives,
         the Department made a unilateral determination to allow the
         contractors to retain provisional fees even though the end-states
         were never achieved through no fault of the contractor.
         Consequently, Fluor Hanford received equitable adjustment
         payments and had other fee reallocated to other work. Paying on a
         percent complete basis defies the end-state incentive concept.

         It should be noted that in two cases, payments under the new
         accelerated fees actually paid the contractor more for
         accomplishing less than what the prior non-accelerated incentives
         required. Prior to the acceleration incentives, Fluor Hanford was
         required to treat and dispose of approximately 9,820 cubic meters
         of mixed low-level waste for $7.75 million in fee. Ultimately,
         Fluor Hanford treated and disposed of approximately 6,350 cubic
         meters of mixed low-level waste and was paid about $9.25 million
         in performance-based incentive fees. In another instance, the pre-
         acceleration incentives called for Fluor Hanford to dispose of
         3,234 cubic meters of suspect transuranic waste for $6.4 million in
         performance-based incentive fee. Under the new accelerated
         incentives, Fluor Hanford was paid $14.1 million for the
         disposition of approximately 3,360 cubic meters of suspect



Page 6                                                           Comments
         transuranic waste. As a result, Fluor Hanford received over twice
         the compensation for completing four percent more work. The
         Richland Operations Office Manager asserted that Fluor Hanford
         took on more risk by waiving assumptions and government-
         furnished items listed in earlier performance incentives. Based on
         our limited review of the data, we could not validate the Richland
         Operations Office Manager's assertion.

         Management Comment

         Management stated that the Richland Operations Office and Office
         of River Protection had implemented the first recommendation --
         to appropriately evaluate the projects' probability for success when
         establishing performance incentives -- before the audit was
         conducted.

         Auditor Response

         While we appreciate that the Office of Environmental Management
         agreed with the recommendations, we disagree that both the
         Richland Operations Office and Office of River Protection had
         already implemented the first recommendation. As noted in the
         body of the report, while the Richland Operations Office evaluated
         the projects' probability of success; it did not fully consider risk
         factors -- such as regulatory barriers or nuclear material
         consolidation issues -- that were beyond the contractors' control.
         In the case of the Office of River Protection, it performed no risk
         analysis of the work that was incentivized Therefore, the Office
         of River Protection had no way of determining whether the work
         scope assigned to the contractor was realistic or achievable.




Page 7                                                           Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department had effectively implemented performance-based
              incentives to accelerate cleanup at the Hanford Site.


SCOPE         We conducted the audit from April 2005 to March 2006, at the
              Hanford Site in Richland, Washington. The scope of the audit
              covered the Richland Operations Office and the Office of River
              Protection's performance-based incentives.


METHODOLOGY   To accomplish the audit objective, we:
                 • Obtained and reviewed planning documents for
                   performance-based incentives;

                 • Researched Federal and Departmental regulations;

                 • Reviewed findings from prior audit reports regarding
                   performance-based incentives;

                 • Analyzed the Fluor Hanford, Inc., contract with the
                   Richland Operations Office;

                 • Analyzed the CH2M HILL Hanford Group, Inc., contract
                   with the Office of River Protection; and,

                 • Interviewed key personnel in the Richland Operations
                   Office, Office of River Protection, and the Office of
                   Environmental Management.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              We assessed internal controls established under the Government
              Performance and Results Act of 1993 related to the Richland
              Operations Office and Office of River Protection's performance-
              based incentives at the Hanford Site. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did
              not conduct a reliability assessment of computer-processed data
              because a limited amount of computer-processed data was used
              during the audit.

              We held an exit conference with management on June 26, 2006.


Page 8                                    Objective, Scope, and Methodology
Appendix 2

                                 PRIOR AUDIT REPORTS

  •   Management Controls over the Hanford Site Transuranic Mixed Tank Waste
      (OAS-M-06-01, November 2005). The Department of Energy (Department) had not
      addressed regulatory and permitting issues prior to proceeding with the transuranic mixed
      tank (TRUM) waste project. The Office of River Protection initiated the project and
      incentivized the contractor to complete work without fully addressing issues related to
      obtaining the necessary permits to retrieve, treat, and dispose of the waste, or completing
      regulatory actions required under the National Environmental Policy Act of 1969
      (NEPA). In addition, the Office of River Protection did not resolve the State of New
      Mexico Environmental Department concerns about disposing of the waste at the Waste
      Isolation Pilot Plant because it had previously been managed as high-level waste; State of
      Washington Department of Ecology concerns about permitting the retrieval, treatment,
      and temporary storage of the waste until there was an approved geologic repository; or
      the Office of Environment, Safety and Health issues regarding the NEPA supplemental
      analysis for the TRUM project.

  •   Accelerated Tank Waste Retrieval Activities at the Hanford Site (DOE/IG-0706,
      October 2005). The audit disclosed that, in terms of both schedule and cost, the
      Department will not meet its Tri-Party Agreement milestone for the retrieval of waste
      from the single-shell tanks located in the C-Farm. The Department was overly optimistic
      about its ability to retrieve tank waste and it had not based its approach on sound retrieval
      experience and proven retrieval technologies. While the audit focused on activities at the
      C-Farm, the findings have broader implications for the entire tank waste cleanup effort.
      Specifically, as a result of tank waste retrieval delays and cost overruns, the Department's
      ability to meet its Agreement milestone of removing waste from all single-shell tanks by
      2018 is in jeopardy.

  •   Sludge Removal Operations at the Hanford Site's K Basins (DOE/IG-0698,
      September 2005). The audit found that the sludge removal operations are behind
      schedule and over budget. This occurred, in part, due to the fact that the Department has
      not structured performance fees to effectively incentivize relevant project activities. As
      such, milestones may be missed and cost overruns could impact the Department's ability
      to further accelerate cleanup work at Hanford. In fact, the work scope can no longer be
      completed within the contractor's existing contract and Richland estimates the work will
      not be completed until October 2007.

  •   Use of Performance Based Incentives by the Office of Civilian Radioactive Waste
      Management (DOE/IG-0702, September 2005). The Office of Civilian Radioactive
      Waste Management (OCRWM) paid incentive fees even though the contractor did not
      meet performance expectations. OCRWM paid fees even though the contractor exceeded
      deadlines and failed to produce quality work, work scope was reduced due to poor
      performance, and products did not meet quality standards. The contractor also received
      fee for work that was not performed. Further, incentivized work was eliminated due to
      contractor performance concerns. This occurred because OCRWM did not establish
      adequate quality assurance plans.


Page 9                                                                      Prior Audit Reports
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                    IG Report No. DOE/IG-0739

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                                       http://www.ig.energy.gov

                U.S. Department of Energy Office of Inspector General Home Page
       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
